                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A06090046                                                                     Page 1 of 1



                 Our office conducted an inquiry into an allegation the Subject l submitted NSF proposals2
          containing plagiarism. The Subject's response to our inquiry did not dispel the allegation and we
          concluded there was sufficient evidence to proceed with an investigation.

                We referred the matter to the University.3 The University concluded, based on a
         preponderance of the evidence, that the Subject knowingly and recklessly committe4 plagiarism,
         deemed a significant departure from accepted practices. The University President terminated the
         Subject's employment, effective December 31, 2007.

                 We accepted the University's Report and its evidentiary record. However, we found it
         appropriate to further investigate such elements as the standards of the Subject's research
         community. We concluded, based on a preponderance of the evidence, that the Subject
         knowingly committed plagiarism in two proposals, deemed a significant departure from accepted
         practices.

                This memo, the attached Report of Investigation, the Deputy Director's letter, and the
         Director's letter constitute the case closeout. Accordingly, this case is closed.




             .
NSF OIG Form 2 (11102)
        I    ...."..




CONFIDENTIAL                                                                           CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                             Confidential
                        Report of Investigation
                       Case Number A06090046
                           Part 2 of 2, Tabs 10 - 25
                               March 16, 2009

 This Confidential Report ofInvestigation is the pr{)perty oftbe NSF OIG-and may be disclosed outside
     NSF only by OIGunder the Freedom of 1iifo.i:n:iationahd Privacy Acts, 5 U.S.c. §§552a.
                       ,                             ,"   .,   "                                    "   "   .. ,

                                                                                  NSF OIG Form 22b (il/o6)
CONFIDENTIAL                                                                     CONFIDENTIAL



                                     Executive Summary

Allegation:       Plagiarism.

OIG Inquiry:      OIG identified 12 sources from which approximately 196 unique lines were
                  apparently copied into 2 unfunded NSF proposals. Based on the Subject's
                  response, OIG re-examined the proposals, identifying 486 additional lines
                  apparently copied from 10 ofthe originally identified and 2 newly identified
                  sources. 010 referred the matter to the Subject's home institution.
University
Investigation
and Action:
                  The University concluded, based on a preponderance of the evidence, that the
                  Subject knowingly and recklessly committed plagiarism, deemed a significant
                  departure from accepted practices.
                  The University President terminated the Subject's employment, effective
                  December 31, 2007.
OIG Investigation: To verify whether some copied material was attributable to the Subject's
                   collaboration with another researcher, OIG initiated an investigation. OIG
                   concluded that the Subject copied 320 unique lines from 12 sources.
OIG Assessment:          Overall OIG concurs with the University assessment:
                         • The Act: The Subject committed plagiarism in two proposals.
                         • Intent: The Subject acted knowingly.
                         • Standard of Proof: A preponderance of evidence supports the
                            conclusion that the Subject committed plagiarism.
                         • Significant Departure: The SUbject's plagiarism represents a
                            significant departure from accepted practices.
                         • Pattern: Two NSF proposals contain plagiarism.
OIG Recommends:
                         •   Make a finding of research misconduct against the Subject.
                         •   Send the Subject a letter of reprimand.
                         •   Require certifications from the Subject for a period of 3 years.
                         •   Require assurances from the Subject's supervisor for a period of3
                             years.
                         •   Require certification of attending an ethics class within 1 year.




                                               1
CONFIDENTIAL                                                                                     CONFIDENTIAL



                                                OIG's Inqniry

        The National Science Foundation (NSF) Office oflnspector General (OIG) conducted an
inquiry into an allegation that the Subject1submitted an NSF proposal (Proposal 12) containing
plagiarism. Our initial analysis of this proposal found approximately 120 unique lines allegedly
copied from 8 source texts? Our initial analysis of the Subject's only other proposal (Proposal
                                                                    5
24) also found 76 unique lines allegedly copied from 4 source texts. Neither proposal contained
                                                                6
a "References Cited" section or referencing within the proposa1.

        OIG contacted the Subject about the allegation.? In his responses,s the Subject said he
attended an NSF workshop9 where he asked about writing proposals on topics of which he had
limited knowledge. He said:                                                               .

                 The answer I got was to allow me to copy the materials from other
                 documents, and was told that I do not need the citations because my
                 proposal is not mrc publication; it is just a research plan what I am
                 going to do [sic]. 0

He also said most of the copied material was located in the proposals' introductions/overviews,
and that he had permission from a Colleague 11 to use materials the Colleague had shared with
him. 12

       The Subject noted he used one source containing material identical to Sources F and GI3
and not the sources we identified. He also identified text from the Colleague's previously funded
                                   15
proposal 14 he had used in his own. The Subject concluded, "Again, I would apology [sic] the
mistakes I made and deeply appreciated your corrections [sic] me on this issue.,,16      '



                                                                                                              Tabs




                                                                                                  Program Officer
suggested the                    the proposal because the proposed project did not suit the program announcement.
5 Tab 3, Sources I-L.
6 Proposal} contained the Subject's Biographical Sketch and Proposal 2 contained the Subject's Colleague's
Biographical Sketch in the proposals' respective "References Cited" Sections.
7 Tab 4.
8 Tab 5 contains the Subject's initial response; Tab 6 contains additional questions posed to the Subject and his




                                                        2
CONFIDENTIAL                                                                                            CONFIDENTIAL



        We reviewed his response and noted that although NSF does not distinguish between the
locations of aJlegedly plagiarized text, the annotated text was not localized to the proposals'
introductions or overviews, as the Subject claimed. We also noted the Subject could not provide
OIG with either the information needed to corroborate his claim regarding the NSF workshop, or
with evidence indicating the Colleague granted him permission to include 271 lines from his own
previously-funded NSF proposal.1 7 However, most crucially the Subject did not contest that he
had copied text without adequate citation.

     OIG re-annotated the proposals based on the Sqbject's response. IS The following chart
summarizes the allegedly copied text in each proposal: .

                                                Proposall         Proposal 2          Total
                         Source                 (Declined)        (Withdrawn)         (Unique)
                         A                      5 lines                               5 lines
                         B                      67 lines                              67 lines
                         C                      5 lines                               5 lines
                         D                      6 lines                               6 lines
                         E                      6 lines                               6 lines
                         F                      38 lines                              38 lines
                         G                      16 lines                              16 lines
                             19
                         8                                        271 lines           271 lines
                         I                                        10 lines            10 lines
                         J                                        14 lines            14 lines
                         K                                        15 lines            15 lines
                         L                                        33 lines            33 lines
                         Total
                         (Non-Unique)           143 Iines20       343 lines21        486 lines

We concluded there was sufficient evidence to proceed with an investigation.

                                     University Inquiry and Investigation

      Per our policy, we referred the matter to the University 22 and informed the Subject that
we contacted his University to initiate an investigation.23




17 The Subject did however provide emails in which his colleague wrote "I am very happy to have you as a
Collaborator," and that he was "attaching copies of our grant (and the abstract to the grant) that was funded by NSF"
(Tab 6, pg. 1 of Subject's response).
18 Tab 7 contains Proposal J; Tab 8 contains Proposal 2; and Tab 9 contains Source A-L.
19 Source H is the Colleague's proposal.                                         .
20 These 7 sources consist of 4 journal articles, 1 website, and 2 publications from professional organizations.
21 These 5 sources consist of I NSF              1 journal articie, and 3 books.

23 It was brought to our attention that the Subject did not receive the attachments to the investigation referral letter.
Tab 12 contains a letter we provided the Subject to which we attached a copy of the attachments.           .


                                                              3
                                                                                                  CONFIDENTIAL
CONFIDENTIAL


       Although the University initially did not have a research misconduct policl'
                                                                               2    the
                                                  24
University adopted a policy prior to our referra1. However University officials decided to
conduct the investigation pursuant to its Collective Bargaining Agreement (CBA).26

      The University produced an Investigation Report (Report) with attachments, including
Committee members' CVs; three Interoffice Memoranda (IM#l; IM#2; IM#3) from the
Committee; notes from a.Pre-Disciplinary Conference (PDC); a letter from the Subject to the
                                                         27
University President; and documentation of final action.

           In each of its thr~e IMs,28 the Committee determined that the Subject committed
plagiarism. IM#l states:
                    After extensive and careful investigation ofthe evidence forwarded to
                    [the] University by the National Science Foundation that accuses [the
                  , Subject] of research misconduct, the [Committee] finds in good faith
                                                                       29
                    that [the Subject] committed research misconduct.

 The specific evidence by which it made its determination comprised the annotated sections OIG
 provided for review. The Committee turned the matter over to the University President for
 furth~r action, s~ting "that the plagiarism involved in the investigation are [sic] persistent and
 egregIous, suffiCIent to warrant sanctions.,,3o

    . The Subject received a copy ofIM# 1 in a letter informing him about the PDC. The
                                                      31
 Subject then requested a meeting with the Committee.




 24  b
 th~~e~O' OIG strongly suggested the University consult with its counsel regarding implementation and operation of




 was conducted by academics who                                  they .           a report.  said the Investigation
 referral letter was not referenced' and the original 4       we p~ovlde~. The Subject was not interviewed; OIG's
 conversation, the University cho~e not t6 subm't th'-P~~t~ rlepo contamed no.a~achments. Based on our
 28 D                     '                       I    IS 1m la report, and re-do It mstead
      ue to procedural glitches, the Committee wrote three Int ffi M
 Tab 17, pg 47-50 contains IM#1 which th C             'tt      er~ Ice emoranda (IMs)'contammg
                                                                                            . .         .
                                                                                                     theIr findings:
 contains IM#2, which the Com~ittee wr te om~l. ~e w~ote ~for~ interviewing the Subject; Tab 17, pg 54-56
 contains IM#3, which the Committee wr~t: :~:~ :~~~!IY m~~~tlhewsmgb.the Sbubj~ct by his request; and Tab 17, pg 63
 29 Tab 17, pg 47.                                  mg WI      e u ~ect y hIS request following the PDC.
 30   Tab 17, pg 50,
 31
      Tab 17, pg 6.


                                                           4
                                                                                    CONFIDENTIAL
CONFIDENTWJ


       During this meeting, the Subject "provided proof that he formally withdr~;v NSF gran.t
[Proposal 2]." 32 Because "the document was not formally reviewed by the NSF, the CommIttee
decided "the document should not be considered in this investigation:.33 Nonetheless, the
Committee upheld its original finding of research misconduct.

        AHhe subsequent PDC, the Subject reiterated his previous contentions: he did not have a
clear example / template of how an NSF proposal should appear; he received misinformation at
the NSF workshop; and he never received formal English training. However, he also
acknowledged he did not read NSF's instructions on proposal preparation, but rather focused
only on the proposal's scientific content. 34 Moreover, the Subject voiced discontent with aspects
of the investigation he felt unfair?S

        Following the PDC, the Subject requested another meeting with the Committee.
According to the committee, the Subject again "insisted that he was misinformed and
misunderstood that the NSF proposal should have references," yet "did agree that he failed to 36
look at the complete guidelines posted by the NSF for documenting sources within a proposal.
IM#3 states,

                 The Committee still finds that the document was plagiarized
                 extensively and cannot change its decision. It is the opinion ofthe
                 Committee that citing references in papers, whether proposals, articles,
                 books, or other written academic undertakings is common knowledge
                 among academic experts. 37           {

          The Subject also provided the University President with a written statement,38 reiterating
 he h~d limited e~perience writing grant proposals, had never had formal English training, had
 provIded OIG WIth all the references in his response to our inquiry, and did not intend to
 plagiarize material. He further explained that "The reason I had to make copies was that the
 research and education related biomedical fields are really beyond my professional knowledge,
 In order to describe my research topic, I have to use them.,,39 He held NSF and its workshop
 responsible for not providing example / template proposals or a clear answer regarding the need
 for ,refer,ences. He said his motivations for writing the proposal were to better opportunities for
 Umversity students and University programs.




 32Tab 17,pg 54 .
33
34
   Tab 17,pg. 54
   Tab 17, pg 59.
;: These will be discussed later in the section "OIG's Assessment of the R rt"
   Tab 17 pg 63.                                                          epo .
37        '
   Tab 17, pg 63.
38 Tab 17, pg 67-72.
39 Tab 17, pg 68.




                                                        5
CONFIDENTIAL                                                                                      CONFIDENTIAL



                                          University Adjudication

       The ProvostlVice President for Academic & Student Affairs 40 recommended the Subject
lose one month of2007-2008 academic year salary, and the Subject's third year renewal
                                             41
evaluation take into account the misconduct.

       The Universit1' President, however, decided to terminate the Subject's contract effective
                    4
December 31,2007. She stated that "Neither before the Committee nor at the Pre-Disciplinary
Conference did [the Subject] present any persuasive evidence which refuted the allegation of
research misconduct in the form ofplagiarism.,,43 Furthermore, "Nowhere in his response does
he accept responsibility for his failure to give credit to the sources he used.,,44 The University
President, using "the preponderance of the evidence as the standard ofproof,,,45 concluded:

                 Taking into consideration all of the aforementioned evidence, there is
                 sufficient evidence that [the Subject] committed plagiarism as defined
                 by NSF regulation. This constitutes a significant departure from
                 accepted practices of the research community. [The Subject] acted
                 knowingly and recklessly.46

In addition, the University President said that, although the Committee removed Proposal 2 from
analysis, "it too contained plagiarized materials," and therefore "presents evidence to suggest a
pattern ofbehavior.,,47

                           OIG's Assessment of the Investigation and Report

       OIG received the Report and attachments, and invited the Subject to provide comment. 48
As part of his response, the Subject noted aspects of the process he believed deviated from the
University's policy, stating "It seems that [] University failed to adhere to this process
appropriately. ,,49

       OIG acknowled~es the University's process fell short of optimum in reviewing and
evaluating this matter. 5 Nonetheless, we believe the Subject received ample opportunities to



       17,pg
42 Tab 17, pg l.
43 Tab 17, pg 8-9.
44 Tab 17, pg 6.
45 Tab 17, pg 9.
46Tab 17, pg 10.
47 Tab 17, pg 8.
48 Tab 18.
49 Tab 19, pg 3.
50 Our evaluation of the Report identified a number of deficiencies:
     •   The Committee did not interview the Subject before completing its initial report, thus not allowing the
         Subject to present his account and thus creating additional issues in accurately investigating the matter.
     •   The Committee did not examine the Subject's explanations regarding the plagiarism. Specifically, they did
         not explore his claims regarding the NSF workshop or permission received from a Colleague.


                                                         6
CONFIDENTIAL                                                                                     CONFIDENTIAL


address his concerns prior to compilation of its final Report. OIG therefore accepts the
University's Report and its evidentiary record. However, we found it appropriate to further
investigate certain elements such as plagiarism in Proposal 2, the possible collaborative
relationship between the Subject and the Colleague, the sAndards of the Subject's research
community, and evidence indicating whether the action was indicative ofa pattern of behavior.

                                             OIG's Investigation

        As part of our investigation, OIG re-examined Proposal 2, specifically focusin on
Source H, a funded NSF proposal from which the Subject allegedly copied 271 lines. 5
                                                                                                      y
Documents the Subject provided reveal a relationship between the Subject and the Colleague.
For example, the Subject wrote in his response that the Colleague' added him to a research team
and as Co-PIon grants. 52 The Subject provided an email in which the Colleague said he would
like to have the Subject's CAREER grant written as an extension of his own project,53 have the
Subject train two students, and write grants with the Subject over the summer. Further, the
Subject said the Colleague emailed him documents to share. 54

        Most notable, the Subject and the Colleague did collaborate on another NSF proposal,
one which did not receive funding. 55 Our office examined this proposal to determine whether
any of the verbatim text copied from Source H also appeared therein. Of the 271 lines copied
from Source H in Proposal 2, 166 were identical to those in the collaborative NSF proposaL 56
Because the Subject was co-PIon this NSF proposal and this joint proposal was submitted prior
to Proposal 2, the Subject arguably has authorship rights to the text therein. Accordingly, only

    •     The Committee removed Proposal 2 from its investigation because the Subject withdrew the proposal.
          Once a proposal has been submitted to NSF, it is considered to be part of NSF's research record.
          Accordingly, we disagree with the committee's decision to exclude this proposal from the investigation.
     • The Committee itself did not address the standard of proof used, explain its decision regarding level of
          intent, or determine whether the act was a significant departure from accepted practices as NSF requires.
          The Committee also did not investigate whether the act was part of a larger pattern of conduct. The
          University President however did address these issues in the Report.
     • The Subject was not inforined the investigation was proceeding under the CBA instead of the policy he
          received from University administration.
     • The Subject did not receive a copy ofthe Report and attachments for review or comment until we provided
          it to him.
     • The PDC transcript contains inaccuracies (according to the subject) causing one to question its accuracy.
          The Subject did not receive an opportunity to review or correct the transcript.
     • The Report attachments did not include certain documents, such as a copy of another federal grant
          discussed            PDC.
51 Tab 9, Source
subsequently transferred
52 Tab 6.
53 Tab 6.

54 Tab 5. Although unclear from the email the Subject provided which grant the Colleague sent, the email's time
frame and the Colleague's statement that the proposal was funded indicate that            is referring to
            The email

                                     NSF received
  Portions of Sources H2, H4, H5, and H6 were identical between                and the Colleague's proposal and
Proposal 2. Since Proposal 2 was received by NSF (July 15,2005) after the joint proposal, and the proposal is not
separable, the Subject may use this text in subsequent submissions as his own.


                                                         7
CONFIDENTIAL                                                                                       CONFIDENTIAL



105 lines from Source H could fairly be considered copied verbatim from a text the Subject did
not author or co-author, Based on this analysis, Proposal 2 contains 177 lines of plagiarized text,
as illustrated below:


                       Source
                       A
                       B
                       C
                       D
                       E                     6 lines                            6 lines
                       F                     38 lines                           38 lines
                       G                     16 lines                            16 lines
                       H                                     105 lines          105 lines
                       I                                     10 lines            10 lines
                       J                                     14 lines            14 lines
                       K                                     15 lines            15 lines
                       L                                     33 lines           33 lines
                       Total
                                             143 lines       177 lines          320 lines

        OIG contacted the Colleague to ask whether he granted the Subject, with whom he
clearly had a collaborative relationship, permission to include the additional verbatim, uncited
proposal text. S7 He responded that he provided the Subject "copies of my previous successful
proposal to the NSF as a format guide for his own proposal efforts!,58 He "did not give [the
Subject] permission to copy, verbatim or otherwise, any portion of my profosal," and added he
had "never seen final copies of any proposal submitted by [the Subject].,,5 Nonetheless, the
Colleague said he and another colleague agree "the Subject did not abscond with or claim as his
own our scientific ideas, proprietary information, research data, or intellectual property :,60

       OIG examined the ethical guidelines for one of the leading professional associations61 in
the Subject's field to determine standards of the  'ecl's research              The
                                       its members


            By not crediting others' contributions properly, the Subject violated accepted practices
of his relevant research community,


57 Tab 22.
58 Tab 23, pg 1. Emphasis as in original.
59 Tab 23, pg 1. "My proposal" refers to the proposal labeled Source H. Emphasis as in original.
00                                                            )




                                                         8
CONFIDENTLA"L                                                                                    CONFIDENTIAL


                                                                              64
       Lastly, OIG examined three articles63 and one DOE report the Subject authored. None
ofthe documents contained plagiarism.

                                               OIG's Assessment

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 65                                                 .


                                             The Act
        The Subject plagiarized 320 unique lines, from 12 source texts into two unfunded
proposals, neither of which contained "References Cited" sections or referencing within the
document. Throughout the inquiry and investigation the Subject said he was unaware of NSF
proposal requirements because, although he had attended NSF workshops, he had been given
both erroneous information and had not received a clear example I template of a complete NSF
proposal. 66 He provided other works he authored to illustrate that he does include references
when instructed to do so.

        OIG concurs with the University Report that the Subject significantly departed from the
accepted. standards of his research community in offering text written by others as his own
words, and in providing those words as emblematic of his own understanding of the research
field. Furthermore, OIG finds that by copying a rather large amount of text, the Subject
misrepresented his own effort and underlying body of knowledge regarding that scientific field.
Indeed, the Subject said he copied the material because he was not familiar with that area of
science. The Subject thus presented reviewers with an incorrect measure of his abilities in that
area.

                                              Intent
        OIG concurs with the Report's conclusion that the Subject acted knowingly. First, the
extent of plagiarism suggests the Subject's actions were more than reckless. Second, the
Subject's other authored works indicate he is aware that references are necessary. Although he
argues that he did not know NSF proposals require citation, the proposal itself has a section

63   The three articles were:
       •

       •
       •


                             which the Subject was co- PI, did include a "References Cited" section, the section
                                Additionally, ~nse to the draft report (Tab 25, pg 1), the Subject said "the
                              totally made by_[sic]. Hejust added my name as co-Pl." The Subject himself
                not contribute to the proposal or the "References Cited" section.


                                                          9
 CONFIDENTIAL                                                                                          CONFIDENTIAL



 entitled "References Cited." The Subject does not explain why such a section would appear
 were citations unnecessary.67

                                      Standard ofProof
       010 concludes that the Subject's actions and intent were proven based on a
 preponderance of the evidence.

         010 concludes that the Subject, by a preponderance ofthe evidence, knowingly
                                                                68
 plagiarized, thereby committing an act of research misconduct.

                                       OIG's Recommended Disposition

        When deciding what appropriate action to take upon a finding of misconduct, NSF must
 consider:

                    (1) How serious the misconduct was; (2) The degree to which the
                    misconduct was knowing, intentional, or reckless; (3) Whether it
                    was an isolated event or part of a pattern; (4) Whether it had a
                    significant impact on the research record, research subjects, other
                    researchers, institutions or the public welfare; and (5) Other
                    relevant circumstances. 69

                                             Seriousness
         The Subject's actions are an egregious violation of the standards of scholarship and of
  the fundamental tenets of research ethics. First, the extent of the plagiarism - approximately 320
. unique lines within 2 unfunded NSF proposals from 12 source texts is in itself serious.

        Second, we note that the copied text was intended to misrepresent the Subject's body of
 knowledge in that the Subject himself said he copied the material because he was not familiar
 with that area of science. NSF reviewers therefore received an inaccurate means of judging the
 proposals' respective merit.

        Lastly, the SUbject still continues to deflect responsibility for his actions. He continues to
 place blame on NSF for not spelling out the requirements for him at a workshop he claims he
 attended and on University officials for not informing him that the rroposal erroneously did not
 contain citations before they submitted the proposal on his behalf. 7



  67 In his response to the draft report (Tab 25, pg 1), the Subject stated "I thought this section ["References Cited"]
  should put the information ofa person who was a reference to me [sic], and this problem was not corrected by the
  NSF officer [ ] when I was asked to withdraw my first proposaL" However, DIG notes that while Proposal 2
  included his Colleague's Biographical Sketch in the "References Cited" section, Proposal 1 included the Subject's
  own Biographical Sketch in that section. By the Subject's reasoning, he would have been using himself as his own
  reference.
  68
     45 C.F.R. part 689.
  69
     45 C.F.R. §
  70 Tab 19, pg 2: "I                                           had identified the lack of references they could have
. alerted me and the proposal would not have been sent with this error."


                                                            10
CONFIDENTIAL                                                                                        CONFIDENTIAL


                               Degree to which Action was Knowing
         Our office generally believes that the act of plagiarism is an act done knowingly. In
submitting the NSF proposals, the Subject clearly knew he had copied the text without
attribution. Although he explains that he was told NSF proposals do not require citations, he
does not explain why the proposal would then contain a section entitled "References Cited."
Instead, he said he did not spend time reading the Grant Proposal Guide. Had he read this guide,
which is often most useful for those who are begi~ning to write grants, he might have seen that
the Grant Proposal Guide clearly articulates NSF's expectations:                     .

         NSF expects strict adherence to the rules of proper scholarship and
         attribution. The responsibility for proper attribution and citation rests with
         authors of a proposal; all parts of the proposal should be prepared with equal
         care for this concern. Authors other than the PI (or any co-PI) should be
         named and acknowledged. Serious failure to adhere to such standards can
         result in findings of research misconduct. NSF policies and rules on research
         misconduct are discussed in the AAG Chapter VII.C, as well as in [45] CFR
                   71
         Part 689.

Furthermore, although the Subject received his bachelor's degree in another country,72 he
received his master's and Ph.D. in the United States. 73 Similarly, much of the Subject's teaching
experience is in the United States. 74 As such,he is expected to be knowledgeable in what
constitutes research misconduct within the United States.

                                              Pattern
        OIG concludes the current evidence - extensive plagiarism in 2 proposals - supports a
finding of pattern within the Subject's actions.

                                               Recommendation

Based on the evidence, OIG recommends NSF:

             •    send a letter of reprimand to the Subject informing him that NSF has made a
                  finding of research misconduct; 75

             •    require the Subject to certify to OIG's Associate Inspector General for
                  Investigations (AlGI) that proposals or reports he submits to NSF do not contain
                  plagiarized material for 3 years;76                     '     .

71GPG Section J.D.3. (June 2007). An identical provision existed in the GPG in effect at the time the Subject
submitted the proposal.


                                                                                                              In his
response to our       report,                                   years                               years teaching
(Tab 25, pg 6). He noted "All of my duties did not require to [sic] write any proposal at all," and that when he did
choose to write an NSF proposal, the Authorized Organizational Representative at his University edited, reviewed
and submitted it but "did not point out my proposal totally lacking of the references at all [sic]" (Tab 25, pg. 6).
75 A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(1)(i)).




                                                          11
CONFIDENTW"                                                                           CONFIDENT~
                                                                                                        , I

             •   require the Subject to submit assurances by a responsible official of his employer
                 to the AlGI that any proposals or reports submitted by the subject to NSF do not
                 contain plagiarized material for 3 years/ 7 and

             •   require the Subject to complete an ethics course, which includes discussion on
                 citation practices, within 1 year and provide certification of its completion to OIG
                 upon completion.

                        The Subject's Response to Draft Investigation Report

        We provided the Subject with, a copy of our draft report and attachments for comment. 78
The Subject submitted a response 79 in'which he argued, among other things, that he did not
commit plagiarism knowingly. Whi\e we did incorporate some of the Subject's comments into
the final report and footnotes, we determined the Subject's reply did not provide adequate reason
for OIG to change its original determinations and recommendations, as stated above.




76 Certification by an individual is authorized in 45 C.F.R. §689.3{a).
77 Requirement for assurances is a Group I action (45 C.F.R. §689.3{a){I){iii».
78 Tab 24.
79 Tab 25.




                                                        12
                                 NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




                                       JUL 1 6 2009

    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFffiD MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination

Dear Dr. • ,
       Fro~ 2005-2006, you subrilitted two nrumo:salS to the National Science Foundation
(''NSF''). The 2005 proposal was                                         and the
~ was              entitled,
~ As documented in the attached Investigative Report prepared by NSF's Office of
Inspector General ("DIG"), these proposals contained plagiarized text.


Research Misconduct and Proposed Sanctions
                                                                   as
        Under NSF's regulations, ''research inisconduCt" is defined "fabricatio~ falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689. 1(a)(3). Afinding ofresearch misconduct
requires that:

       (1) There be a significant departure from accepted practices      0   f the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained verbatim and paragraphed text, copied from 12 source
documents. By sUbmitting proposals to NSF that copied the ideas or words of another without
adequate attribution, as descnbed in the DIG Investigative Report, you misrepresented someone
else's work as your own. YoUr conduct unquestionably constitutes plagiarism. I therefore
conclude that your actions meet the definition of ''research misconduct")set forth in NSF's
regulations.                                                                '
                                                                                                Page 2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
 reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
 evidence, your plagiarism was committed knowingly and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
 research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding ofmiseonduct. 45 CFR § 689.3(a). Group I actions include issuing
a letter ofreprirnand; conditioning awards on prior approval of particular activities from NSF;
requiring that an institution or individual obtain special prior approval of particular activities from
NSF; and requiring that an institutional representative certify as to the accqracy of reports or
certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record~ 45 CFR §
689.3(a)(2). Group III actions include suspension or termination of awards; prolnbitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our determination that it was committed knowingly,
as well as our determination that it was part of a pattern of plagiarism. I have also considered the
fact that your misconduct had no impact on the research x:ecord, as well as other relevant
circumstances. 45 CFR § 689.3(b).

        After assessing the relevant facts and circumstances ofthis case, I am taking the following
actions against you:

       (1 )    Until iu.1y30,2()12, yOu must provide certincations to the OfG that any proposal ..
               you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
               fabricated material;

       (2)     Until July 30,2012, you must submit assurances from a responsible official of your
               employer to the OIG that your submissions to NSF do not contain plagiarized,
               falsified, or fabricated material; and

       (3)     You must certify to the OIG that you have completed a research ethics training
               course on plagiarism by July 30,2010.


       AU certifications and assurances should be submitted in writing to OIG, Associate
Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.
--------------------------------------------------------------------------------

                                                                                                     Page 3.
         Procedures Governing Appeals
                  Under NSF's regulations, you have 30 days after receipt ofthis letter to submit an appeal
         of this decision, inwriting, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
         should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
         Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this
         decision will become final.

                For your information,we are attaching a copy ofthe applicable regulations. If you have
         any questions about the foregoing, please call           Assistant General Counse~ at (703)
         292-8060.'                     ,



                                                              Sincerely,




                                                              Cora B. Marrett
                                                              Acting Deputy Director



         Enclosures
         - Investigative Report
         - 45 C.F.R. Part 689




                                                                                                                  I
                                                                                                               , I
                                                                                                                  I
                                                                                                                 I
                                                                                                                 I
                                                                                                                 I
                                                                                                                 I
                              · NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230




                                      OCT 2 6 2009

    OFFICE OF THE
      DIRECTOR




CERTIFIED MAIL RETURN RECEIPT REQUESTED




       Re: .Decision 0" Appeal of Research Misco"duct Determination


Dear Dr. •

On September 9, 2009, you filed. an appeal ofthe August 19, 2009 decision issued by Dr. Cora
Marrett, the National Science Foundation's ("NSF") Acting Deputy Director. In this decision,
Dr. Marrett made a finding of research misconduct against you because you submitted. two
proposals to NSF that contained plagiarized text As a result ofthis finding, NSF required that
you provide written certifications and assurances for any proposal that you submit to NSF
through July 30,2012. In addition, NSF required you to complete an ethics training course on
plagiarism by July 30, 2010..

In your appeal, you argue that you did not kno'Wingly commit plagiarism. In support of your
argument, you indicate that English is not your native language, and, as a result, you were forced
to rely on the <assistance of native English speakers to help you prepare yourproposals for.
submission to NSF. Moreover, you assert that, at a workshop you attended in 2005, NSF
personnel did not provide you with information about the reference requirements applicable to
proposals. Thus, you request that I reverse NSF's August 19, <2009, decision.

Your appeal is denied. You submitted two proposals for funding to NSFand, as a result, you
were required to comply with the rules of scholarly attnbution ~pplicable to such proposals. You
earned your master's and Ph.D. degrees in the United States, and therefore shOUld have known
that copying text with inadequate attribution is improper. Your failure to provide proper
attribution for the copied material in your proposals constitutes plagiarism, and your actions in
this regard are a serious deviation, and a significant departure, from the accepted practices of
your research community.         .
                                                                                            Page 2
Moreover, in accordance with NSF regulations, a finding ofresearch misconduct is warranted
even ifI were Ito conclude that you recklessly, as opposed to knowingly, committed plagiarism.
Thus, I affirm the August 19, 2009, decision in its entirety.     '

This is NSF's fmal administrative action in this case. There is no further right of appeal. If you
have any questions about the foregoing, please call Lawrence Rudolph, General Counsel, at
(703) 292-8060.                                            .


                                                     Sincerely,



                                                     ~-(.~-.            -:t'sr--
                                                     Arden L. Bement, Jr.
                                                     Director
